HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by the
Medical College of Virginia Hospital for Fiscal Years 2000 Through 2002,"(A-04-03-06019)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental Residents Claimed by the
Medical College of Virginia Hospital for Fiscal Years 2000 Through 2002," (A-04-03-06019)
March 24, 2006
Complete
Text of Report is available in PDF format (721 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Medical College of Virginia (the Hospital) included
the appropriate number of dental residents in its full-time equivalent (FTE) counts when
computing Medicare graduate medical education (GME) payments for fiscal years (FYs) 2000
through 2002.  Although the Hospital appropriately included dental residents in its
FTE counts used to compute FYs 2001 and 2002 GME payments, in FY 2000 the Hospital inappropriately
included 41.90 direct GME FTEs and 34.07 indirect GME FTEs in the counts without incurring
all of the costs of training dental residents in nonhospital sites that year.  Because
the FY 2000 FTEs were used in the 3-year rolling average, the Hospital overstated its direct
and indirect GME claims by a total of $1.6 million for FYs 2000 through 2002.  The Hospital
also included didactic, i.e., classroom, time for the residents when working in nonhospital
settings.
We recommended that the Hospital:  (1) file an amended cost report to refund $1,644,284,
(2) establish and follow procedures to ensure that the FTE counts for residents in nonhospital
settings include only those FTEs for which the Hospital has incurred all or substantially
all of the training costs, (3) determine whether similar errors occurred after FY 2002 and
refund any overpayments, and (4) work with CMS to resolve the $473,116 related to FYs 2001
and 2002 FTEs for the didactic time of residents assigned to nonhospital settings.  The
Hospital generally disagreed with our findings and recommendations.